No. _ _ _ __

~n tbe $Upreme <ttourt of tbe Wlniteb $tate9'
MICHAEL W. GAHAGAN,
Applicant,
V.

UNITED STATES CITIZENSHIP & IMMIGRATION SERVICES,
Respondent.

MICHAEL W. GAHAGAN,
Applicant,
V.

UNITED STATES DEPARTMENT OF JUSTICE, et al.,
Respondents.

MICHAEL W. GAHAGAN,
Applicant,
V.

UNITED STATES CITIZENSHIP & IMMIGRATION SERVICES;
U.S. CUSTOMS & BORDER PROTECTION,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit

APPLICATION FOR A 45-DAY EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

To:

The Honorable Samuel A. Ali to, Associate Justice of the
United States Supreme Court and Circuit Justice for the United
States Court of Appeals for the Fifth Circuit
Applicant Michael W. Gahagan ("Gahagan") respectfully seeks a 45-day

extension from May 27, 2019, to and including July 11, 2019, within which to file a
petition for a writ of certiorari to review the judgme nt of the U.S. Court of Appeals
for the Fifth Circuit in the above-captioned consolidated appeals .
The present deadline for a certiorari petition is May 27, 2019. The Fifth
Circuit issued its precedential opinion in these consolidated appeals on December
20, 2018. Then, on February 26, 2019, the Fifth Circuit denied Gahagan's timely
rehearing petition. This time-extension application is being filed on May 16, 2019more than 10 days before Gahagan's certiorari petition is due. See S. Ct. R. 13.5.
This Court's jurisdiction would be invoked under 28 U.S.C. § 1254(1). Copies of the
Fifth Circuit's precedential opinion and sub sequent denial of rehearing are included
with this application. See Appendix (cited as "App .").
The following grounds support this time-extension application:
1.

This case is about the proper interpretation of fee-shifting statutes.

In particular, this case is about whether attorneys who represent themselves and
prevail in suits under the Freedom of Information Act (FOIA) may recover the value
of their skilled labor under FOIA's fee-shifting provision, 5 U.S.C. § 552(a)(4)(E)and the rules of statutory interpretation that govern this question.
2.

In 1991, this Court ruled in Kay v. Ehrler, 499 U.S. 432, that prose

attorney-plaintiffs who prevail in federal civil-rights suits cannot recover fees under

2

the Civil Rights Attorney's Fees Awards Act of 1976, 42 U.S.C. § 1988. See id. at
437-38. The Court reached this conclusion based solely on the Court's estimation of
§ 1988's purpose, after concluding that§ 1988's text and history were ambiguous on
the question. See id. at 435-36. The Court declared that "the successful prosecution
of meritorious [civil rights] claims" was "better served by a rule that creates an
incentive to retain counsel in every such case." Id. at 438.
3.

The question presented in Kay was limited to § 1988. See Cert. Petition

at i, Kay, 499 U.S. 432 (No. 90-79). And the Court's decision in Kay adheres to this
limit. See 499 U.S. at 435-38. Nowhere does the Court declare in Kay- as it has in
other cases-that the Court is setting a bright-line rule for all fee- shifting statutes.

See, e.g., Buckhannon Bd. & Care Home, Inc. v. W. Va. Dep't of Health & Human
Res., 532 U.S. 598, 600 (2001) (addressing the "[n]umerous federal statutes [that]
allow courts to award attorney's fees and costs to the 'prevailing party"').
4.

Three years after Kay , in Fogerty v. Fantasy Inc., 510 U.S. 517 (1994),

this Court rejected the argument that the Copyright Act's fee-shifting provision had
to be read just like§ 1988 and Title VII's fee-shifting provision, 42 U.S.C. § 2000e5(k). The Fogerty petitioner urged this argument based on the Court's earlier-stated
view that "fee-shifting statutes' similar language is a strong indication that they are
to be interpreted alike." Id. at 523 (quoting Flight Attendants v. Zipes, 491 U.S. 754,
758 n.2 (1989)). This Court replied that the jurisprudential factors that justified its
earlier interpretations of§ 1988 and § 2000e-5(k) - all rooted in statutory purpose
and history- were "absent in the case of the Copyright Act." Id.

3

· 5.

Lower courts quickly absorbed the lesson of Fogerty. In an opinion by

Judge Easterbrook, the Seventh Circuit emphasized that "[a]ny tendency to treat
all attorneys' fee s statutes as if they were insignificant variations on§ 1988 was
squelched by Fogerty." Stamper v. Amalgamated Transit Union, Local 241, 27 F.3d
316, 318 (7th Cir. 1994). Indeed, Fogerty established that "even a statute with the
same text as§ 1988 doe s not necessarily have the same meaning." Id. The Seventh
Circuit also noted Fogerty made it clear § 1988 and § 2000e-5(k) "were laws with a
unique background and history of interpretation, which cannot be generalized
to other statutes authorizing the award of fees." Id. (bold added).
6.

Under FOIA's fee-shifting provision, 5 U.S.C. § 552(a)(4)(E), "a court

may assess against the United States reasonable attorney fees and other litigation
costs reasonably incurred in any [FOIA] case ... in which the complainant has
substantially prevailed." This provision is part of a carefully-integrated sch eme that
is meant not only to incentivize citizen suits to enforce FOIA, but also to deter and
penalize government wrongdoing. For example, FOIA's disciplinary provision,
5 U.S.C. § 552(a)(4)(F), expressly identifies FOIA fee awards as a necessary trigger
for disciplinary action against government employees who have committed FOIA
violations. Congress has also mandated that FOIA fee awards have to be paid by
the offending federal agency, rather than from the public fisc. See Pub. L. No. 110175, § 4(b), 121 Stat. 2524, 2525; cf. Orner v. Shalala, 30 F.3d 1307, 1309 (10th Cir.
1994) ("[F]ees under the EAJA penalize ... [an agency] for assuming an unjustified
legal position and, accordingly, are paid out of agency funds .").

4

7.

Applicant Michael W. Gahagan is an immigration attorney who often

uses FOIA to obtain government documents. App.2. In this instance , he represented
himself successfully in three separate FOIA suits. See id.
8.

Gahagan moved for costs and was granted $1,485.52 across all three

FOIA suits. App.2. Gahagan also moved for fees in each FOIA suit. See id. Under
then-governing Fifth Circuit precedent, prose attorney-plaintiffs were eligible to
recover fees under FOIA. See Texas v. ICC, 935 F.2d 728, 731- 32 (5th Cir. 1991);

Cazalas v. Dep't of Justice, 709 F.2d 1051, 1057 (5th Cir. 1983). Gahagan was a past
recipient of such fees. See, e.g., Gahagan v. U.S. Citizenship & Immigration Servs.,
2016 U.S. Dist. LEXIS 36931, at *63 (E.D . La. Mar. 21, 2016) . .
9.

The district courts below each refused to award fees to Gahagan. The

first district court to refuse held that this Court's decision in Kay erected a "bright
line rule" that "pro se attorney litigants are not entitled to attorney's fees under .. .
42 U.S.C. § 1988" and "the same bright line rule applie[d] to .... FOIA." Gahagan v.

USCIS, No. 2:16-cv-15438, 2017 U.S. Dist. LEXIS 147002, at *12- 13 (E.D. La. Sept.
12, 2017). The other two district courts then adopted the first district court's view in
succession. See Gahagan v. USCIS & CBP, No. 2:15-cv-6218, 2017 U.S. Dist. LEXIS
209748, at *3 (E.D. La. Dec. 19, 2017); Gahagan v. DOJ, et al., No. 2:13-cv-5526,
2017 U.S. Dist. LEXIS 156880 at *2 (E.D. La. Sept. 20, 2017).
10. Gahagan timely appealed each fee-denial order under 28 U.S.C. § 1291.
11. The Fifth Circuit subsequently agreed to consolidate Gahagan's three
appeals for purposes of briefing, argument, and decision.

5

12. On.December 20, 2018, a Fifth Circuit panel issued a precedential
decision affirming t he district courts' respective judgments. App .11.
13. The pa nel agreed wit h t he district courts t h at Kay was controlling. See
App .7- 10. The panel thereby overruled the Fifth Circuit's decisions in Cazalas a nd

ICC. S ee App.10 ("After Kay , Cazalas no lon ger represents binding precedent .. .. ").
The panel also over r uled a t hird decision, Cofield v. City of A tla nta, 648 F.2d 986,
988 (5th Cir. 1981), in which t he Fifth Circuit h ad ruled t hat because FOIA's
"history, langu age, and purpose ... differO significantly from those of the civil rights
statutes," § 1988 cases were "inapposite" to deciding t he scope of FOIA's fee-shiftin g
provision. See App.8 n. 3 ("Cofield ... does not survive .. . subsequent Supreme Court
decisions interpreting all federal fee-shifting provisions consistently.").
14. The panel held t h at absent express textual differences, all federal feeshifting statutes must be read the same exact way, making Kay a bright-line r ule.
The p a nel emphasized that "[t]he Supreme Court has repeatedly instructed ...
consistent interpret ation" of feder al fee-shifting statutes. App.8. This analysis
conflicts with this Court's lat er decision in Fogerty, which- as the Seventh Circuit
h as expressly recognize d- requires "individual a nalysis" of fe deral fee-shifting
st atutes, as opposed to "treat[ing] all [fe dera l] attorneys' fees st atutes as if
they were insignificant variations on [42 U.S.C.] § 1988." Stomper v. A malgamated

Transit Union, Local 241, 27 F.3d 316, 318 (7th Cir . 1994).
15. The p a nel also held that the word "incurred" in FOIA's fee-shifting
provision further suppor ted the panel's a na lysis because "incurred" means "a legal

6

obligation to pay" some third-party, and prose attorney-plaintiffs have "no legal
obligation to pay" attorney's fees to a third-party. App.10- 11. If correct, this holding
eliminates the fee_-award eligibility of a myriad of FOIA litigants beyond just prose
attorney-plaintiffs. For example, non-profits, businesses, law firms, and government
entities have no legal obligation to pay fe es when they are r epresented by in-house
counsel in a FOIA suit. This places the panel's holding in direct conflict with the
Seventh Circuit, which h as recognized that attorney's fees are also "incurred" when
"time and resources ... devote[d] to one case are not available for other work"-a
reading that covers in-house counsel and pro-se attorney-plaintiffs alike. Wisconsin

v. Hotline Indus., Inc., 236 F.3d 363, 365- 66 (7th Cir. 2000).
16. Finally, the panel held that prose attorney-plaintiffs cannot recover
attorney's fees under FOIA. See App.11. This holding is contrary to FOIA's text,
structure, history, and purpose, as carefully analyzed in the Fifth Circuit decisions
that the panel overruled. See Texas v. ICC, 935 F.2d 728, 731- 32 (5th Cir. 1991);

Cazalas v. Dep't of Justice , 709 F.2d 1051, 1055-57 (5th Cir. 1983).
17. Gahagan timely petitioned for rehearing. See App .12- 14. On February
26, 2019, the Fifth Circuit denied Gahagan's rehearing petition. See id.
18. While Gahagan's rehea ring petition was pending, the Government filed
a bill-of-costs with the Fifth Circuit for copying and bookbinding expenses. Gahagan
objected. Ga hagan argued that FOIA's fee-shifting provision did not authorize costshifting to the Government, and even if it did, the panel decision precluded a cost
award. This was because the panel decision defined "incurred" to mean a legal

7

obligation to pay a third party, versus simply expending one's own resources. The
Government, in turn, furnished no evidence (e.g., a receipt) to show that it had paid
(or was bound to pay) its requested costs to a third-party (e.g., FedEx). On February
6, 2019, the Fifth Circuit granted Gahagan's objection. App.16.
19. The Fifth Circuit's precedential decision here raises three important
questions that merit Supreme Court review. First, whether all federal fee-shifting
statutes must be read identically- a rule that this Court (Fogerty) and the Seventh
Circuit (Stomper) have rejected. Second, whether the word "incurred" in a federal
fee-shifting statute means a "legal obligation to pay" a third-party- a rule that the
Seventh Circuit has rejected (Hotline). Third, whether under a fair reading of
FOIA's text, structure, history, and purpose, FOIA's fee-shifting provision allows
prevailing pro se attorney-plaintiffs to recover attorney's fees.
20. Given the importance of the preceding questions, Gahagan respectfully
requests a 45-day extension of his deadline to file a certiorari petition.
21. Good cause exists to grant this request. Gahagan's appellate counsel-ofrecord, Mahesha P. Subbaraman, has been subject to many competing obligations
between March 2019 and May 2019. These obligations have included:
•

Preparation of a merits amicus brief for this Court in Mitchell v.
Wisconsin, No. 18-6210 (U.S.) (filed Mar. 4, 2019);

•

Presentation of oral argument in DeLuna v. Mower County,
No. 18-1933 (8th Cir.) (argument heard Mar. 12, 2019);

•

Preparation of an opening brief for Appellant Stephen Nichols in
Nichols v. Wayne County, No. 19-1056 (6th Cir.) (filed Apr. 10, 2019);

•

Preparation of a panel-stage amicus brief in Serrano v. U.S. Customs
& Border Patrol, No. 18-50977 (5th Cir.) (filed Apr. 23, 2019);
8

•

Preparation of a panel-stage amicus brief in Vizaline, L.L. C. v.
Tracy, No. 19-60053 (5th Cir.) (filed May 1, 2019);

•

Preparation of a joint amici brief in support of rehearing in Jessop v.
City of Fresno, No. 17-16756 (9th Cir.) (filed May 13, 2019)

22. Current competing obligations on Mr. Subbaraman's time include:
(1) preparation of a certiorari petition to be filed with this Court in Harrington, et
al. v. Berryhill, No. 18A1060 (U.S.) (extending certiorari deadline to June 7, 2019);

and (2) preparation of an reply brief to be filed with the Sixth Circuit in Nichols v.
Wayne County, No. 19-1056 (6th Cir.) (due July 3, 2019).

23. Based on the above obligations, Mr. Subbaraman is unable to prepare
an adequate certiorari petition in this case absent the requested time extension.
Mr. Subbaraman is a solo practitioner with no partners, associates, or legal support
staff. Mr. Subbaraman is further representing Gahagan pro bono.
Gahagan thus respectfully asks the Court to extend his time within which to
file a certiorari petition to and including July 11, 2019.

Respectfully submitted,
Dated: May 16, 2019

SUB~ ~ -(

j/

By ~
Mahesha P. Subbaraman
SUBBARAMAN PLLC
222 S. 9th Street, Suite 1600
Minneapolis, MN 55402
(612) 315-9210
mps@subblaw.com
Counsel-of-Record for Applicant
Michael W. Gahagan

9

_____

